v>

Case: 17-14716

Date Filed: 06/05/2020

Page: 1 of 27

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 17-14716
D.C. Docket No. 8:15-cr-00320-SDM-TGW-3

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
PRISCILLA ANN ELLIS,
PERRY CORTESE,
Defendants'-Appellants.

Appeals from the United States District Court
for the Middle District of Florida
(June 5, 2020)
Before JORDAN, TJOFLAT, and TRAXLER,* Circuit Judges.
PER CURIAM:

* The Honorable William B. Traxler, Jr., Senior United States Circuit Judge for the Fourth
Circuit, sitting by designation.

Case: 17-14716

Date Filed:-06/05/2020

Page: 2 of 27

Priscilla Ann Ellis and Perry Don Cortese, along with others, were charged
with conspiracy to commit mail and wire fraud, see 18 U.S.C. § 1349, and conspiracy
to launder money, see 18 U.S.C. § 1956(h). A jury convicted Ellis and Cortese on
both counts. Ellis and Cortese appeal, raising challenges to their convictions and
sentences. Finding no reversible error, we affirm.
I. Background
Ellis is an Army veteran who lived in Harker Heights, Texas, during the
relevant time period.

Cortese is an attorney who lived in Little River, Texas.

According to the evidence presented at trial, Ellis and Cortese were part of an
international fraudulent scheme that began in 2012 and continued into 2015. The
government’s evidence, which included testimony from cooperating members of the
conspiracy and from numerous victims, showed that the conspiracy had fraudulently
obtained millions of dollars from scores of victims.
The conspiracy used different scams, but the heart of the operation involved
duping victims into depositing counterfeit cashier’s checks in their own bank
accounts and then wiring the proceeds to shell companies and overseas bank
accounts controlled by the conspirators before the counterfeiting was discovered.
The conspirators used various methods to find their victims, such as emailing law
firms or title companies to seek assistance in closing a real estate transaction or
resolving a business dispute, sending out emails offering opportunities to work from
2

Case: 17-14716 ’ Date Riled: 06/05/2020

Page: 3 of.27

home, and using online dating services to trick women into perceived relationships
' and gain access to their bank accounts.: Sometimes the conspirators simply hacked
a victim’s email account and used the victim’s personal information to conduct wire
transfers.
The operation was directed by Ikechukwu Amadi, a. Canadian citizen and
Nigerian national who used numerous aliases during the course of the conspiracy.
Other members of the conspiracy included Akohomen Ighedoise, a Canadian citizen
and Nigerian national; Muhammad Naji, a Jordanian national who lived in Tampa,
Florida; Stacey Merritt, an Alaska resident; and Kenietta Johnson, who is Ellis’s
daughter and worked at a bank in Alexandria, Virginia.
Viewed in the light most favorable to the government, the evidence presented
at trial showed that Ellis was. deeply involved in the operation of the scheme. Amadi
sent her information about counterfeit checks to be created* and Ellis worked with
another co-conspirator (believed to be in South Africa) and Johnson to create and
print the counterfeit checks used'by the conspiracy. She brought her sister and her
daughter into the scheme, recruited others to open bank accounts to be used by the
conspirators, and gave instructions to'other co-conspirators about where funds
should be directed. Millions of dollars of fraudulent proceeds were routed through
the bank account of a corporation she controlled.

3

Case: 17-14716

Date Filed:.06/05/2020

Page: 4 of 27

Cortese’s role in the conspiracies was somewhat more limited. One of his
important functions was to intervene when necessary to “unfreeze” accounts that had
been locked by banks because of suspicious transactions. Cortese worked closely
with Ellis, and funds from many of the scams Ellis was involved in flowed through
his law firm trust account. On one occasion, Ellis arranged for Cortese to fly to Utah
to pick up cash from a woman who had been ensnared through one of the onlineromance scams. Along with Ellis, Cortese recruited his paralegal to open bank
accounts to be used by the conspiracy, and fraudulent proceeds were wired from
those accounts into Cortese’s law firm trust account and given to him in cash.
The operative indictment named Amadi, Ighedoise, Ellis, Cortese, Merritt,
and Johnson as defendants, but the trial proceeded against only Ellis, Cortese, and
Johnson.1 Ellis represented herself at trial.1 Trial witnesses included Naji and Zoni
Mullins, who was Cortese’s paralegal, as well as numerous victims of the scams.
On October 21, 2016, the jury convicted Ellis, Cortese, and Johnson of conspiracy
to commit mail and wire fraud and conspiracy to launder money. (Johnson has not
appealed her convictions.)
In January 2017, Ellis — while incarcerated on the charges in this case
conspired with others to create and pass more counterfeit checks. She needed cash
i

Merritt pleaded guilty shortly before trial and testified for the government. At the time
of the trial, the government was in the process of seeking extradition of Amadi and Ighedoise from
Canada.
.

4

Case: 17-14716

Date Filed: 06/05/2020

Page: 5 of.27

so she could hirea hitman to killNaji’s mother, Mullins, and Mullins’s nine-yearold daughter in retaliation for their trial testimony. Based on that incident, Ellis was
indicted on additional federal charges of using interstate commerce facilities in the
commission of murder for hire and retaliating against a witness. Ellis was convicted
of all charges arising from the murder-for-hire scheme several months before being
sentenced iii this case.2

.

Prior to the sentencing hearing in this case, the district court held an
evidentiary hearing to determine the loss amount that would be attributed to the
defendants. The court determined that Ellis and Cortese could reasonably have
foreseen a total intended loss of $15,147,908.16 during the period they were
involved with the conspiracy. After application of the loss-amount and other
offense-level enhancements, Ellis’s advisory, sentencing range was 360-480 months.
The district court found Ellis’s conduct “incomprehensible,” describing it as “evil
and wicked, predatory.” The court sentenced Ellis to 240 months on each count, to
be served consecutively, for a total sentence of 480 months’ imprisonment.
Cortese’s advisory sentencing range was 324-405 months. The Court sentenced
Cortese to a total of 300 months’ imprisonment - 240 months’ imprisonment on the
•. • .

. 2 After the sentencing .in this case, the district court in the murder-for-hire case sentenced
Ellis to 65 years’ imprisonment, with the sentence to run consecutive to the sentences in this case.
5

Case: 17-14716

Date Filed: ,06/05/2020

Page: 6 of 27

fraud conspiracy and a consecutive 60 months for the money-laundering conspiracy” "
Ellis and Cortese both appeal, raising challenges to their convictions and sentences.
II. Trial Issues
A. Venue
The defendants, who lived and worked in Texas, contend that the government
failed to prove that venue was proper in the Middle District of Florida. We disagree.
The Constitution and the Federal Rules of Criminal Procedure require that
criminal trials be held in the district where the crime was committed. See United
States v. Cabrales, 524 U.S. 1, 6 (1998). “[T]he site of a charged offense must be
determined from the nature of the crime alleged and the location of the act or acts
constituting it.” Id. at 5 (internal quotation marks omitted). “[I]n an action involving
a conspiracy,... the offense has been committed in any district where any overt act
was performed in furtherance of the conspiracy.” United States v. Bradley, 644 F.3d
1213, 1253 (11th Cir. 2011).
In this case, venue in the Middle District of Florida was predicated on the
actions of co-conspirator Naji, who cooperated with the government and testified at
trial. Naji lived in Tampa, which is in the Middle District. Naji testified that he
opened a bank account (in the name of a shell company) in Tampa and that the
account was used to funnel the proceeds of various scams to accounts controlled by
the co-conspirators. While living in Tampa, Naji recmited his girlfriend and others,
6

Case: 17-14716

Date Filed: 06/05/2020

Page: 7 of-27

including prostitutes, to open accounts that were used by the conspiracy to launder
fraudulent proceeds. Naji’s testimony thus established that multiple overt acts in
furtherance of the conspiracy took place within the Middle District of Florida.
The defendants insist, however, that venue cannot be established through Naji,
because he cooperated with the government and therefore was no longer a member
of the conspiracy. See United States v. Wright, 63 F.3d 1067, 1072 (11th Cir, 1995)
(“[I]t takes at least two to conspire neither of which may be government agents or
informers.”). This argument is without merit. Although Naji eventually began
cooperating with the government, the evidence presented at trial showed numerous
overt acts that happened in Tampa before Naji began cooperating. See United States
v. Breitweiser, 357 F.3d 1249, 1253 (11th Cir. 2004) (explaining that when
considering a challenge to venue, this court must “view[] the Evidence in the light
most favorable to the government and mak[e] all ■ reasonable inferences and
credibility choices in favor of the jury verdict”) (internal quotation marks omitted).
That evidence was more than sufficient to establish that venue was proper, whether
or not Ellis or Cortese had any personal connection with the Middle District of
Florida. See United States v. Matthews, 168 F.3d 1234, 1246 (11th Cir. 1999)
(“Where a conspiracy is concerned, venue is ... proper in any district where an overt
act was committed in furtherance of the conspiracy. The overt act need not be
committed by a defendant in the case; the acts'of accomplices and Unindicted co7

Case: 17-14716

Date Filed: 06/05/2020

Page: 8 of 27

conspirators can also expose the defendant to jurisdiction.”) (citation and internal
quotation marks omitted).
B. Sufficiency of the Evidence
The defendants contend that the government’s evidence was insufficient to
support their conspiracy convictions. We review the sufficiency of the evidence de
novo. See United States v. Hasson, 333 F.3d 1264, 1270 (11th Cir. 2003). “The
record is viewed in the light most favorable to the verdict, drawing all reasonable
inferences and resolving all questions of credibility in favor of the government.
Viewed in such a light, the, verdict will be affirmed if a reasonable juror could
conclude that the evidence establishes guilt beyond a reasonable doubt.” Id.
1. Conspiracy to Commit Mail and Wire Fraud
To convict a defendant of conspiracy to commit mail or wire fraud, the
government must prove “(1) a conspiracy to commit [mail or wire fraud]; (2)
knowledge of the conspiracy; and (3) that [the defendant] knowingly and voluntarily
joined.the conspiracy.” United States v. Feldman, 931 F.3d 1245, 1257 (11th Cir.
2019) (internal quotation marks omitted), cert, denied, 2020 WL 1668565 (U.S. Apr.
6,2020).
a. Ellis
Ellis does not challenge the sufficiency of the evidence showing the existence
of the conspiracy. Instead, Ellis argues that she was duped by other members of the
8

Case: 17-14716

Date Filed: 06/05/2020

Page: 9 of 27

conspiracy and was an unwitting participant in the fraudulent schemes. Ellis
contends that while she “may have incidentally participated in the schemes to
defraud, no competent evidence existed to suggest that she intentionally participated
in the frauds.” Initial Brief of Ellis at 29-30. We disagree.
The government presented overwhelming evidence in the form of testimony,
emails, and text messages showing Ellis’s direct and substantial involvement in the
conspiracy. She was in constant contact with Amadi through email, text, and phone
calls. She was directly involved in the creation and deployment of the counterfeit
cashier’s checks and used her daughter to print the cheeks. Ellis and Cortese
recruited Mullins to open new bank accounts to be used to receive and distribute
proceeds from the conspiracy’s schemes,: Mullins opened the accounts, received
wire transfers directed into the accounts by Ellis, and transferred the funds out of the
account as instructed by Cortese and by Ellis. Mullins removed cash -from the
accounts and distributed it at the defendants’ direction. On one occasion, Mullins
followed instructions and withdrew cash,-which she gave directly to Cortese and
Ellis who were waiting at nearby Sam’s Club:' Millions of dollars of fraud proceeds
flowed through the bank account of Vicken International Traders, a company Ellis
controlled that conducted no apparent legitimate business. When she was arrested,
Ellis told the agents that Vicken’s bank account had been frozen four times because
of suspicious activities.
9

Case: 17-14716

Date Filed:, 06/05/2020

Page: 10 of 27

The evidence described above does not paint the picture of a mere victim who
unwittingly opened her bank accounts to fraudsters. Instead, the evidence was more
than sufficient to permit a reasonable juror to conclude beyond a reasonable doubt
that Ellis was a knowing, active participant in the conspiracy.
b. Cortese
Cortese also contends that the evidence was insufficient to show that he
knowingly joined the conspiracy. He contends he served as Ellis’s lawyer but had
no knowledge that she was involved in fraudulent schemes.
Although Cortese’s involvement in the conspiracy was not as extensive as
Ellis’s, the evidence nonetheless showed that it was significant. If a bank froze an
account being used by a co-conspirator, Amadi connected the co-conspirator to
Cortese for help in regaining access to the account. For example, when one of Naji’s
recruits (his girlfriend) had an account frozen, Naji initiated a conference call
between his girlfriend, Amadi, Ellis, and Cortese to discuss the account, and Cortese
touted his success in unfreezing accounts. And when Naji was arrested in 2015 on
the charges in this case, Amadi directed Cortese to call Naji. When they talked,
Cortese wanted information so Amadi could access an account controlled by Naji,
because a $1.5 million transfer has just been made to that account. And, as discussed
above, proceeds from various scams involving counterfeit checks created at Ellis’s
direction were transferred into Cortese’s trust account; Cortese was directly involved
10

Case: 17-14716

Date Filed: 06/05/2020

Page: 11 of 27

(along with Ellis) in bringing Mullins, his paralegal, into the scheme and directing
the use of the accounts she opened; and Cortese, at Ellis’s direction, flew to Utah to
collect Cash from a victim.
Cortese may not have known all of the members of the conspiracy, and he
may not have profited from the conspiracy as much as other members, but those
points are largely irrelevant to our inquiry on appeal.- See, e.g., United States v.
Perez-Tosta, 36 F.3d 1552, 1557 (11th Cir. 1994) (“Guilt [on a conspiracy charge]
may exist even when the defendant plays only a minor role and does not know all
the details of the conspiracy.”). In our view, the evidence recounted above was
plainly sufficient to support the jury’s verdict. See United States v. Knowles, 66 F.3d
1146, 1154 (11th Cir. 1995) (“For sufficiency purposes, the evidence need not
exclude every reasonable hypothesis of innocence; rather, the question is whether a
reasonable trier of fact, when choosing among reasonable constructions of the
evidence, could have found the defendant guilty beyond a reasonable doubt.”)
(footnotes and internal quotation marks omitted); Perez-Tosta, 36 F.3d at 1557
(“Participation in a criminal Conspiracy need not be proved by direct evidence; a
common purpose and plan may be inferred from a development and collocation of
circumstances.”) (internal quotation marks omitted).
2 . Conspiracy to Commit Money Laundering

11

Case: 17-14716

Date Filed: 06/05/2020

Page: 12 of 27

To convict Ellis and Cortese under 18 U.S.C. § 1956(h), “the Government
needed to prove two elements . . . : (1) an agreement between two or more persons
to commit a money-laundering offense; and (2) knowing and voluntary participation
in that agreement by the defendant.” United States v. Feldman, 936 F.3d 1288,1307
(11th Cir. 2019) (internal quotation marks omitted).

“An essential element of

money laundering conspiracy is that the defendant knew that the funds involved in
the transactions represented the proceeds of unlawful activity.”
quotation marks omitted).

Id. (internal

In this case, the government alleged two money­

laundering offenses as the objects of the conspiracy: money laundering to promote
the carrying-on of the conspiracy, see 18 U.S.G. § 1956(a)(l)(A)(i), and money­
laundering to conceal the source of the funds, see id. § 1956(a)(l)(B)(i).
The defendants do not argue that the evidence was insufficient to establish the
, existence of a money-laundering conspiracy, but again argue that they did not
knowingly participate in the conspiracy. We disagree.
As discussed above, the government’s evidence showed that Ellis was
involved in the creation of the counterfeit checks and in directing the accounts
through which the fraudulent proceeds would flow. She recruited Mullins to open
accounts and instructed her to open them as business accounts, which would draw
less scrutiny from the banks. Ellis provided other co-conspirators with documents
(created by Amadi) purporting to show a legitimate purpose for the wire transfers
12

Case: 17-14716

Date Filed: 06/05/2020

Page: 13 of 27

into Mullins’s account. Ellis knew that bank accounts used by the conspiracy were
being closed for fraud, and she worked with Cortese to try to regain access to these
• accounts. We have no difficulty finding this evidence sufficient to show Ellis’s
knowledge of the fraudulent origins of the funds and her knowing participation in
the money-laundering conspiracy .
The evidence was likewise sufficient to support Cortese’s conviction. Like
Ellis, Cortese knew that banks were recalling wire transfers and rejecting counterfeit
checks, and he intervened to try to unfreeze accounts being used by the conspiracy.
Amadi connected Cortese with other conspirators when bank accounts were frozen
for fraudulent activity. Cortese received fraudulent proceeds into his trust account,
and he transferred the funds out as directed, sometimes to overseas accounts.
Cortese worked with Ellis to bring Mullins into the scheme and pushed her to open
more accounts than she was willing to^do. He informed Mullins when wire transfers
would appear in her accounts, and he gave her instructions on how the funds should
be transferred out of the account. Cortese also advised Mullins on how to interact
with the banks so as not to raise questions. From this evidence, a reasonable juror
could easily conclude that Cortese knew that the funds were the proceeds of
fraudulent activity and that he knowingly participated in the money-laundering
conspiracy.
III. Sentencing Issues
13

Case: 17-14716

Date Filed: 06/05/2020

Page: 14 of 27

A. Loss Amount
For fraud-based offenses, the Sentencing Guidelines provide for an increase
in the offense level based on the amount of loss that resulted from the fraud. See
U.S.S.G. § 2B1-.1(b)(1). After conducting an evidentiary hearing, the district court
determined that the intended loss of the conspiracy was $15,147,908.16, and that the
full amount was reasonably foreseeable to both Ellis and Cortese. The loss amount
included $9,288,241.36 of fraudulently obtained funds that were actually wiretransferred into accounts used by the conspiracy, and $5,859,666.80 in counterfeit
checks that were received by victims but not cashed. The loss amount as calculated
by the district court increased the defendants’ offense level by 20 levels. See
U.S.S.G. §2Bl.l(b)(l)(K).
On appeal, Ellis and Cortese both challenge the district court’s loss calculation
and contend that they should not be held responsible for the full $15 million in
intended loss found by the district court. “We review a loss-amount determination
for clear error and must affirm the finding by the district court if it is plausible in
light of the record viewed in its entirety.” United States v. Whitman, 887 F.3d 1240,
1248 (11th Cir. 2018) (internal quotation marks omitted), cert, denied, 139 S. Ct.
1276 (2019).
The Sentencing Guidelines direct the sentencing court when calculating the
loss amount to consider “all acts and omissions committed, aided, abetted,
14

Case: 17-14716

Date Filed: 06/05/2020

Page: 15 of 27

counseled, commanded, induced, procured, or willfully caused by the defendant.”
U.S.S.G. § 1B1.3(a)(1)(A). For conspiracy offenses, the court must also take into
account “dll acts and omissions of others that were . . . (i) within the scope of the
jointly undertaken criminal activity, (ii).in furtherance of that criminal activity, and
(iii) reasonably foreseeable in connection with that criminal activity” and occurred
in the commission’of or preparation for the offense or to avoid detection of or
responsibility for the offense.' * Id. § 1B1.3(a)(1)(B). Because “[t]he scope of the
activity jointly undertaken by the defendants is not necessarily the same as the scope
of the entire conspiracy,” United States v. Petrie, 302 F.3d 1280, 1290 (11th Cir.
2002); the sentencing court “must first determine the scope of the criminal activity
the particular defendant agreed to jointly undertake and then consider the conduct of
others that was both in furtherance of, and reasonably foreseeable in connection
with, the criminal activity'jointly undertaken by the defendant.” Id., (internal
quotation marks omitted).
In our view, the district court’s loss determination is firmly supported by the
evidence presented at trial and at 'the evidentiary hearing. See United States v.
Baldwin, 11A F.3d 711, 727 (11th Cir.- 2014) '(“The district court may make factual
findings regarding loss based on trial evidence, undisputed statements in the
Presentence Investigation Report . . . , or evidence presented at the sentencing
hearing.”).
15

Case: 17-14716 . Date Filed; 06/05/2020

Page: 16 of,27

The district court adopted the government’s proposed loss amount, andrthat----amount was a conservative estimate of the total intended losses. Although the
government believed that Ellis joined the conspiracy sometime in 2011 or 2012, the
government’s calculation included only losses occurring after October 2013, the
point by which Cortese and Johnson both had joined the conspiracy.
Moreover, the losses included in the calculations were not the losses of the
entire conspiracy during that time frame, but only those that could be connected in
some manner to the defendants. For example, Ellis was involved in the creation of
every counterfeit check, and $2,600,000 in fraudulent proceeds flowed through her
Vicken Traders account. Ellis and Cortese were connected to the accounts controlled
by co-conspirator Naji through the evidence of their Amadi-directed attempts to
unfreeze the account opened by Naji’s girlfriend and Cortese’s efforts to get account
information from Naji after Naji was arrested.

Cortese was connected to the

$580,000 loss caused by a romance scheme when he traveled - at Ellis’s direction to Utah to retrieve from the victim the money returned to her by the bank after it
closed the account. Ellis gave instructions on transferring out proceeds to other co­
conspirators, and accounts controlled by Cortese and Ellis received wire transfers
from accounts controlled by other co-conspirators.
Given the level of the defendants’ involvement in the conspiracy and the
connections between the defendants and the loss amount asserted by the government,
16

Case: 17-14716

Date Filed: 06/05/2020

Page: 17 of 27

the district court did not err in concluding that Ellis and Cortese each could
reasonably foresee that their jointly undertaken criminal activity would involve the
full intended loss amount of $15,147,908.16. See Whitman, 887 F.3d at 1248
(explaining that a defendant’s “mere awareness that he was part of a larger scheme
is alone insufficient. . ., [b]ut actions that suggest that the defendant was actively
involved in a criminal scheme permit the inference that the defendant agreed to
jointly undertake that scheme) (internal quotation marks omitted).
B. Other Offense-Level Enhancements
1. Ellis
Ellis challenges the district Court’s application of a two-level enhancement
under U.S.S.G. § 2Bl.l(b)(10) for using sophisticated means in the fraud offenses
while also applying a two-level enhancement for engaging in sophisticated money
laundering under U.S.S.G. § 2S1.1(b)(3). • She contends that application of both
enhancements was impermissible double-counting, and she also argues that the
sophisticated money-laundering enhancement is not factually supported.* We find
no error.
-‘i.

3 The defendants contend that the district court failed to make sufficiently specific findings
about the scope of conduct agreed to by the defendants. Even assuming the court’s findings were
not sufficient, reversal is not required because the record amply supports the district court’s
findings See Petrie, 302 F.3d at 1290 (“[A] sentencing court’s failure to make individualized
findings regarding the scope of the defendant’s activity is not grounds for vacating a sentence if
the record support the court’s determination with respect to the offense conduct, including the
imputation of others’ unlawful acts to the defendant.”).
17

Case: 17-14716 . Date Filed vQ6/05/2020

Page: 18 of 27

“Impermissible double counting occurs only when one part of the Guidelines'
is applied to increase a defendant’s punishment on account of a kind of harm that
has already been fully accounted for by application of another part of the
Guidelines.” United States v. Matos-Rodriguez, 188 F.3d 1300, 1309 (11th Cir.
1999) (internal quotation marks omitted). As Ellis recognizes, the district court
applied the § 2Bl.l(b)(10) enhancement because of the use of sophisticated means
in the commission of the fraud, see U.S.S.G. § 2Bl.l(b)(10)(C), but also because “a
substantial part of a fraudulent scheme was committed from outside the United
States,” id. § 2Bl.l(b)(10)(B). The enhancement under § 2B1.1 thus addresses the
harm caused by international fraud schemes, while the enhancement under § 2S1.1
addresses the very different harm caused by sophisticated money laundering
schemes. See U.S.S.G. § 2S 1.1 (b)(3) (enhancement applies if the defendant was
convicted under 18 U.S.C. § 1956 and “the offense involved sophisticated
laundering”); id. cmt. n.5(A) (“‘[Sophisticated laundering’ means complex or
intricate offense conduct pertaining to the execution or concealment of the 18 U.S.C.
§ 1956 offense.”).

And because the enhancements are premised on different

conduct, the Guidelines do not prohibit application of both. See U.S.S.G. § 2S1.1
cmt. n. 5(B) (stating that the sophisticated laundering enhancement should not be
applied if “the conduct that forms the basis for an enhancement under the guideline
applicable to the underlying offense is the only conduct that forms the basis-for
18

Case: 17-14716

Date Filed: 06/05/2020

Page: 19 of 27

application of subsection (b)(3) of this guideline”) (emphasis added). The district
! court therefore did not err by applying the § 2B1.1 and-2SI .Tenhancements. See
United States v, Stevenson, 68 F.3d 1292, 1294 (11th Cir. 1995) (per curiam) (“We
presume that the Commission intended to apply separate guideline sections
cumulatively unless specifically directed otherwise.”).
As to Ellis’s argument that the sophisticated laundering enhancement was not
factually warranted,'we note that the evidence before the district court showed that
the defendants laundered their funds using fictitious transactions, shell corporations, ^
and offshore accounts. The district court therefore did not err in applying the
enhancement.

See U.S.S.G. § 2S1.1 cmt. n.5(A) (“Sophisticated laundering

typically involves the use of (i) fictitious entities; (ii) shell corporations; (iii) two or
more levels (i.e., layering) of transactions, transportation, transfers, or transmissions,
involving criminally derived funds that were intended to appear legitimate; or (iv)
offshore financial accounts.”).
Ellis also contends the district court erred by concluding that she qualified as
a manager or supervisor and applying a three-level enhancement urider U.S.S.G. §
3B1.1. We disagree.
The enhancement applies “[i]f the defendant was a manager or supervisor (but
-not an organizer or leader) and the criminal activity involved five or more
participants or was otherwise extensive.”
19

U.S.S.G. § 3B 1.1(b).

For the

Case: 17-14716

Date Filed: 06/05/2020

Page: 20 of 27

enhancement to apply, “the defendant need only manage or supervise one "other
participant in the criminal activity; However, a section 3B1.1 enhancement cannot
be based solely on a finding that a defendant managed the assets of a conspiracy,
without the defendant also managing or exercising control over another participant.”
United States v. Sosa, 111 F.3d 1279, 1301 (11th Cir. 2015) (citation and internal
quotation marks omitted). The evidence in this case established that Ellis supervised
the creation of the counterfeit checks and gave direction to multiple conspirators and
participants, including Cortese, Johnson, and Mullins. The district court therefore
did not err in applying the enhancement. See id. at 1300 (“We review for clear error
. .. a district court's decision to impose an aggravating-role increase .... Under the
deferential standard of dear-error review, we will not disturb a district court’
findings unless we are left with a definite and firm conviction that a mistake has
been committed.”) (citations and internal quotation marks omitted).
2. Cortese
Cortese contends that the district court erred by concluding that Cortese used
a special skill and applying a two-level enhancement under U.S.S.G. § 3B1.3. We
find no error.
The enhancement applies “[i]f the defendant abused a position of public or
private trust, or used a special skill, in a manner that significantly facilitated the
commission or concealment of the offense.” U.S.S.G. § 3B1.3. “‘Special skill’
20

Case: 17-14716

Date Filed: 06/05/2020 • Page: 21 of 27

refers to a skill not possessed by members of the general public and usually requiring
substantial education, training or licensing. Examples would include pilots, lawyers,
doctors,’ accountants, chemists, and demolition experts.” Id. cmt. n.4
The record before the district court was sufficient to support the conclusion
that Cortese acted as an attorney when advising victims whose accounts had been
frozen and when negotiating with the banks to reopen the accounts. His status as an
attorney and his assurances helped lull the victims into believing that nothing was
amiss, which helped conceal the fraud for as long as possible.

Under these

circumstances, we cannot say the district court clearly erred in finding that Cortese
used his skills as an attorney when committing the offenses. See United States v. De
La Cruz Suarez, 601 F.3d 1202, 1219 (11th Cir. 2010) (“The district court’s legal
interpretation of the term ‘special skills’ is'reviewed de novo, but whether the
defendant possesses a special skill under § 3B1.3 of the Sentencing Guidelines is a
factual finding reviewed for clear error.”).
C. Reasonableness of Sentence
Finally, Ellis and Cortese both challenge the reasonableness of their
sentences. We review the reasonableness of a sentence for an abuse of discretion.
Gall v. United Stales, 552 U.S. 38, 51 (2007); United States v. Irey, 612 F.3d 1160,
1188 (11th Cir. 2010) (en banc). A district court abuses its discretion if it fails to
consider “relevant factors that were due significant weight”; if it “gives significant
21

Case: 17-14716

Date Filed: 06/05/2020

Page: 22 of 27

weight to an improper or irrelevant factor”; or if it otherwise “commits a clear error
of judgment in considering the proper factors.” Irey, 612 F.3d at 1189 (internal
quotation marks omitted). .
1. Ellis
Ellis contends that the district court failed to properly consider the 18 U.S.C.
§ 3553(a) factors. She argues that the facts do not support the court’s view of the
nature of the offense, that the court gave too much weight to her lack of remorse and
her actions in the murder-for-hire case, and that the court ignored all mitigating
factors.
We find no procedural or substantive error in the court’s sentence. The record
reveals that the district court properly considered the § 3553(a) factors and. their
relevance to the sentencing decision.

The court considered the scope of the

conspiracy and the damage caused to its victims, as well as Ellis’s lack of remorse
for her conduct and its effect on the victims. See 18 U.S.C. § 3553(a)(1) (requiring
sentencing court to consider “the nature and circumstances of the offense and the
history and characteristics of the defendant”); id. § 3553(a)(2)(A) (sentence imposed
should “reflect the seriousness of the-offense,. . . promote respect for the law, and .
. . provide just punishment for the offense”). And, contrary to Ellis’s argument,, the
court also properly considered Ellis’s actions in the murder-for-hire scheme, as the
charges in that case involved retaliation against witnesses in this case and were
22

Case: 17-14716

'Date'Fi’lbd: 06/05/2020

Page: 23 of 27

relevant to Ellis’s personal characteristics, the need for deterrence, and the need to
protect the public from future crimes. See 18 U.S.C §§ 3553(a)(1); (2)(B)-(C).
While Ellis disagrees with the weight the district court placed on the deterrence
factor, a sentencing court is permitted to weigh one factor more heavily than others.
See United States v. Shaw, 560 F.3d 1230,1237 (11th Cir. 2009) (“The district court
must evaluate all of the § 3553(a) factors when arriving at a sentence, but is
permitted to attach great weight to one factor over others.”) (citation and internal
quotation marks omitted). The court did not explicitly address any mitigating
factors, but those factors were spelled out in the presentence investigation report,
which the district court adopted and showed its familiarity with during the
sentencing hearing. Accordingly, the record reveals that the district court properly
considered the relevant facts within the framework of § 3553(a).
Although the 40-year sentence imposed in this case is severe, we cannot say
that the sentence is “outside the range of reasonable sentences dictated by the facts
of the case.” United States v. Goldman* 953 F;3d 1213, 1222 (11th Cir. 2020). The
sentence falls within the Guidelines advisory range, and it accomplishes the district
court’s goal of protecting society from an unrepentant criminal who had inflicted
financial ruin on numerous victims and was willing to use violence against those
who exposed her crimes. See United States v. Rosales-Bruno, 789 F.3d 1249,1254
(11th Cir. 2015) (“The decision about how much weight to assign a particular
23

Gase: 17-14716

Date Filed: 06/05/2020

Page: 24 of 27

sentencing factor is committed to the sound discretion of the district"court:”)
(internal quotation marks omitted); Irey, 612 F.3d at 1189-90 (“In reviewing the
reasonableness of a sentence, we must, as the Supreme Court has instructed us,
consider the totality of the facts and circumstances.”)- Accordingly, we reject Ellis’s
claim that the district court imposed an unreasonable sentence. See Irey, 612 F.3d
at 1191 (“We may set aside a sentence only if we determine, after giving a full
measure of deference to the sentencing judge, that the sentence imposed truly is
unreasonable.”).
2. Cortese
Cortese contends that his 300-month sentence is substantively unreasonable.
He argues that a significantly shorter sentence is warranted because his role in the
conspiracy was limited and his financial gain was minimal.
We disagree. Although Cortese’s involvement in the conspiracy was not as
extensive as Ellis’s, it was still extensive.

As previously outlined, Cortese

intervened as necessary to try to convince banks to unfreeze accounts being used to
funnel conspiracy proceeds and to soothe the fears of the victims whose accounts
had been frozen. He personally recruited Mullins to open more accounts to be used
for the benefit of the conspiracy and gave her instructions on how to disburse the
fraudulent proceeds that appeared in her account. Regardless of the extent of his
personal financial gain, Cortese knowingly and directly participated in a long24

Case: 17-14716

.Date.Filed: 06/05/2020

Page: 25 of 27

running conspiracy that stole millions of dollars from its victims. The district court
had before it all of the mitigation evidence, and weighed that evidence against the
facts of the crime and the other § 3553 factors to arrive at a below-Guideline sentence
of 300 months. Given the record before us, we see no clear error ofjudgment by the
district court in sentencing Cortese. See United States v. Langston, 590 F.3d 1226,
1237 (11th Cir. 2009) (“We do not reweigh relevant factors nor do we remand for
re-sentencing unless the district court committed a clear error of judgment in
weighing the § 3553(a) factors by arriving at a sentence outside the range of
reasonable sentences.”).
Cortese also complains about the extent to which a sentence for fraud is driven
by the loss-amount determination. Cortese contends that the amount of intended
loss is not a good proxy for a defendant’s culpability, and he.argues that application
of the steep loss-amount enhancements under the Guidelines leads to . irrational
sentences. Whatever the merits of this argument, it is a policy argument that
provides no basis for reversal of the sentence imposed in this case. The district court
considered the facts and the statutory sentencing factors arid arrived at a sentence
that we have found to be reasonable.' That the application of the loss-amount ■
enhancement might-lead to an unreasonable sentence in another case does not affect
the reasonableness of the sentence imposed in this case.

25

Case: 17-14716

Date Filed: 06/05/2020

Page: 26 of 27

Finally, Cortese-argues that the abuse-of-discretion standard we apply-to
sentencing appeals is unconstitutional. Noting that appellate courts may presume
the reasonableness of a within-Guidelines sentence, see Rita v. United States, 551
U.S. 338, 341 (2007), Cortese contends that the abuse-of-discretion standard has
been applied in a way to effectively prevent criminal defendants from ever
successfully rebutting the presumption. In Cortese’s view, the abuse-of-discretion
standard “gives too much deference and is too forgiving,” such that “[district courts
are effectively immune from appellate review.” Initial Brief of Cortese at 48.
This argument is without merit. The Supreme Court has directed that the
abuse-of-discretion standard governs the reasonableness review of sentences
imposed under advisory Guidelines. See Gall, 552 U.S. at 51 (“Regardless of
whether the sentence imposed is inside or outside the Guidelines range, the appellate
court must review the sentence under an abuse-of-discretion standard.”). The case
law from this circuit is consistent with that directive. See, e.g., United States v.
Gomez, 955 F.3d 1250, 1255 (11th Cir. 2020) (“We review the reasonableness of
the district court’s sentences for an abuse of discretion, employing a two-step
process.”). If Cortese believes we have misapplied that standard when reviewing
his sentence, he may raise that issue in a petition for review with the Supreme Court,
and he may urge that Court to consider fashioning a new standard. But this panel
may not abandon the abuse-of-discretion standard merely because Cortese disagrees
26

Case: 17-14716

Date Filed: 06/05/2020

Page: 27 of 27

with the standard and believes it has been misapplied in other cases. See United
States v. Vega-Castillo, 540 F.3d 1235,1'236 (11th Cir. 2008) (per curiam) (“Under
the prior precedent rule, we are bound to follow a prior binding precedent unless and
until it is overruledJoy this court eh banc Or by the Supreme Court.”) (internal
quotation marks omitted).
IV. Conclusion
To summarize, we conclude that venue was proper in the Middle District of
Florida because co-conspirator Naji committed acts in furtherance of the conspiracy
within the Middle District and that the evidence was sufficient to support Ellis’s and
Cortese’s convictions for conspiracy to commit mail and wire fraud and conspiracy
to commit money laundering. We find no error in the district court’s calculation of
the intended loss amount attributable to the defendants or the court’s application of
the other challenged offense-level enhancements, and we reject the defendants’
claims that their sentences are substantively unreasonable. Accordingly, we hereby
affirm the convictions and sentences of Ellis and Cortese.
AFFIRMED.

27

Case 8:15-cr-00320-SDM-TGW Document 765 Filed 10/20/17 Page 1 of 11 PagelD 5908
AO 24SB (Rev. 11 /1) Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

vs.

CASE NUMBER:
USM NUMBER:

8:15-cr-320-T-23TGW
57791-380

PERRY DON CORTESE

Defendant’s Attorney:

Kenneth Siegel

After a plea of not guilty, the defendant was found guilty of counts one and two of the superseding
indictment.
The defendant is adjudicated guilty of these offenses:
TITLE & SECTION

NATURE OF OFFENSE

OFFENSE ENDED

COUNT

18U.S.C.§ 1341,
18 U.S.C. § 1343, and
18 U.S.C. § 1349

Conspiracy to commit mail and
wire fraud

September 24, 2015

One

18 U.S.C. § 1956(a)(2)(A);
18 U.S.C. § 1956(a)(2)(B)(i);
and 18 U.S.C. § 1956(h)

Conspiracy to commit money
laundering

September 24, 2015

Two

The defendant is sentenced as provided in pages two through eleven of this judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of 1984.
The Court dismisses counts one and two of the Indictment filed on August 20, 2015.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments
imposed by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the court
and United States attorney of material changes in economic circumstances.
Date of Imposition of Judgment: October 16, 2017

STEVEN D. MERRYDAY
1
UNITED STATES DISTRICT JUDGE
October

2d*

, 2017

Case 8:15-cr-00320-SDM-TGW Document 765 Filed 10/20/17 Page 2 of 11 PagelD‘5909
AO 24SB (Rev. 11/16) Judgment in Criminal
.....
Sheet 2 — Imprisonment

Defendant: PERRY DON CORTESE
Case No.: 8:15-cr-320-T-23TGW

Judgment - Page _2_ of 11
IMPRISONMENT

The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned
for a total term of 300 months. The term consists of240 months as to count one and 60 months as to count
two, each count consecutive to the other.
_X_ The court makes the following recommendations to the Bureau of Prisons in their order of
preference: confinement in FCI Bastrop or FCI Three Rivers.
_X_ The defendant is remanded to the custody of the United States Marshal.
___ The defendant shall surrender to the United States Marshal for this district.
__at_a.m./p.m. on__.
__ as notified by the United States Marshal.
— The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons.
_before 2 p.m. on__ .
_as notified by the United States Marshal.
_as notified by the Probation or Pretrial Services Office.
RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
with a certified copy of this judgment.

United States Marshal
By:.
Deputy United States Marshal

:ease,8:15.-er-00320-SDM-.TGW :Documenf765 : Filed 10/20/17 Page 3 .of 11 Page|D.5910
AO 245B (Rev. 11/16) Judgment in a Criminal Case
Sheet 3 — Supervised Release

Defendant: PERRY DON CORTESE
Case No.: 8:15-cr-320-T-23TGW

Judgment * Page _3_ of 11
SUPERVISED RELEASE

Upon release from imprisonment, you will be on supervised release for a term of thirty-six (36) months.
The term consists of concurrent terms of thirty-six months as to count one and thirty-six months as to :
count two.
MANDATORY CONDITIONS
t

1. You must not commit another federal, state or local crime.
2. You musthot unlawfully possess a controlled substance. .
3. You must refrain from any unlawful use of a controlled substance. YPU must submit to one drug test
within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as
determined by the court.
1
X The above drug testing condition is suspended, based on the courts determination
s that you pose a low risk of future substance abuse, (check ifapplicable) ;
4. X You must cooperate in the collection of DNA as directed by the probation
officer, (check ifapplicable) ,
5.
You must comply with the requirements of the Sex Offender Registration .and Notification Act
(42 U.S.C. § 16901, etseq.) as directed by the probation officer, the Bureau of Prisons, or any state
sex offender registration agency in which you reside, work, are a student, or were convicted of a
qualifying offense, (check ifapplicable)
6. __ You must participate in an approval program for domestic violence, (check ifapplicable)
You must comply with the standard conditions that have been adopted by this court as well as with any
other conditions on the attached page.

'V'

Case 8:15-cr-00320-SDM-TGW Document 765 Filed 10/20/17 Page 4 of 11 PagelD 5911
AO 245B (Rev. 11/16) Judgment in a Criminal Case
Sheet 4 — Supervised Release

Defendant: PERRY DON CORTESE
Case No.: 8:15-cr-320-T-23TGW

Judgment - Page _4_ of 11

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These
conditions are imposed because the^ establish the basic expectations for your behavior while on supervision and
improvements in your conduct and condition'
^
d, report to the court about, and bring about

1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.

13.

You must report to the probation office in the federal district where.you are authorized to reside within
j?J?ours °f y°ur release from imprisonment, unless the probation officer instructs you to report to a
different probation office or within a different time frame
After initially reporting to the probation office, you will receive instructions from the court or the
probation officer about how and when you must report to the probation officer, and you must report to
the probation officer as instructed.
You must not knpwingly leave the federa^judicial districtwhere you are authorized to reside without
You must answer truthfully the questions aslced by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or
anything about your living arrangements (such as the people you live with), you must notify the
probation officer at least 10 days Defore the change. Ifnotifying the probation officer in advance is not
possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must
permit the probation officer to take any items prohibited by the conditions of your supervision that he or
she observes m plain view.
Y°u must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation
officer excuses you from doing so. If you do not have full-time employment you must try to find full-time
employment, unless the probation officer excuses you from doing so. If you plan to change where you work or
anythmg about your work (such as your position or your job responsibilities), you must notify the probation
officer at least 10 days before the change. If notifying the probation officer at least 10 days in advance is not
possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know
someone has been convicted of a felony, you must not knowingly communicate or interact with that p erson
without first getting the pemission of the probation officer.
Ifyou are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon
(i.e., anything that was designed, or was modified for, the specific purpose of causing bodily iniury or death to
another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source
or informant without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the
probation officer may require you to notify the person about the risk and you must comply with that
The probation officer may contact the person and confirm that you have notified the person about
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S.probation officer has instructed me on die conditions specified by the court and has provided me with a written
copy of this judgment containing these conditions. I understand additional information regarding these conditions is
available at the www.uscourts.gov.
Defendant’s Signature

Date

Case 8:15-cr-00320-SDM-TGW Document .765 Filed 10/20/17 Page 5 of 11 PagelD 5912
AO 245B (Rev. 11/16) Judgment in a Criminal Case
Sheet 5 — Special Conditions

V

Defendant: PERRY DON CORTESE
Case No.: 8:15-cr-320-T-23TGW

.

; ;• ’ ;r\

Judgment - Page 5 of 11

SPECIAL CONDITIONS OF SUPERVISION
The defendant is prohibited from incurring new credit charges, from opening additional lines of credit,
and from obligating himself for any major purchase without permission of the probation officer.
The defendant must provide the probation officer access to any requested financial information.

;

Case 8:15-cr-00320-SDM-TGW Document 765 Filed 10/20/17 Page 6 of 11 PagelD 5913
AO 245B (Rev. 11/16) Judgment in a Criminal Case
Sheet 6 — Criminal Monetary Penalties

Defendant: PERRY DON CORTESE
Case No.: 8:15-cr-320-T-23TGW

- Judgment - Page _6_ of 11

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments.

TOTAL
__

Assessment

JVTA Assessment*

Fine

Restitution

$200

n/a

waived

$3,767,196.00

The determination of restitution is deferred until___ . An Amended Judgment in a Criminal Case
(AO 245C) will be entered after such determination.

X The defendant must make restitution (including community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States
is paid.
Name of Payee

Total Loss**

Restitution Ordered
I

Clerk, U.S. District Court
Debt Collection Unit
401 West Central Blvd.
Suite 2100
Orlando, FL 32801
for:
Juan Arias
Avenue Bank
Capital Title and Closing
Services, LLC
Fletcher Carson
Kathryn Cusumano
Ellyson Abstract & Title
Carolee Farnsworth
Ferguson, Braswell &
Fraser
Loralea Francis
Kay Goeden
Green and Gold
Depot Inc.
Claudia Hart
Peter Holzer
Molly Johnson
Donna Fanning

$ 97,150.00
200,000.00

97,150.00
200,000.00

97,000.00
175,000.00
25,000.00
190,000.00
20,000.00

97,000.00
175,000.00
25,000.00
190,000.00
20,000.00

200,000.00
85,000.00
40,000.00

200,000.00
85,000.00
40,000.00

314,000.00
112,000.00
96,250.00
101,700.00
143,000.00

314,000.00
112,000.00
96,250.00
101,700.00
143,000.00

Priority or Percentage

Case 8:15-cr-00320-SDM-TGW Document 765 Filed 10/20/17 Page 7 of 11 PagelD 5914
AO 24SB (Rev. 11/16) Judgment in a Criminal Case
Sheet 6 — Criminal Monetary Penalties

Defendant: PERRY DON CORTESE
Case No.: 8:15-cr-320-T-23TGW
Linda Markey
■ Morris Mullen
Kimiko Mural
NexTitle .
Elaine Nicoll
Radford and Wandrel
Fay Smith
Lorene Sparks
Debra Spudich
Sun Title Agency
Patricia Tarsi
Linda Theriot
Merlin Toeile
US Bank
United Escrow Company
TOTALS

30,460.00
' 96,250.00"
90,000.00
255,000.00
28,600.00
97,000.00
38,000.00
225,000.00
50,000.00
180,000.00
60,000.00
132,000.00.
144,000.00
183,286.00
261,500.00
$3.767.196.00

Judgment - Page : 7 “of 11

30,460.00
96j250.‘00
90,000.00
255,000.00
28,600.00
97,000.00
38,000.00
225,000.00
50,000.00
180,000.00
60,000.00
132,000.00
144,000.00
183,286.00
261,500.00
$3.767.196.00

Restitution amount ordered pursuant to plea agreement $____________ .
The defendant must pay interest on a fine or restitution of more than $2,500, unless the restitution
or fine is paid in full before the fifteenth day after the date of the judgment, pursuant to 18 U.S.C.
§ 3612(f). All of the payment options on Sheet 7 may be subject to penalties for delinquency and
default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered
that:
the interest requirement is waived for the__ fine _restitution.
the interest requirement for the __ fine __ restitution is modified as follows:

‘Justice for Victims ofTrafticking Act of 2015, Pub. L. No. 114-22.
“ Findings for the total amount of losses are required under Chapters 109A, 110,110A, and 113A of Title 18 for the offenses committed on or after
September 13,1994, but before April 23, 1996.

Case 8:l5-cr-00320-SDM-TGW Document 765 Filed 10/20/17 Page 8 of 11 PagelD 5915
AO 245B (Rev. 11/16) Judgment in a Criminal Case
—
Sheet 7 — Schedule of Payments

.

'

Defendant: PERRY DON CORTESE
Case No.: 8:15-cr-320-T-23TGW

Judgment - Page _8_ of 11

SCHEDULE OF PAYMENTS
Having assessed the defendant s ability to pay, payment of the total criminal monetary penalties are due
as follows:
,
A. _X_ Lump sum payment of $200 due immediately, balance due
___ not later than
: ■■ •
, or
___in accordance with__ C,__ D,__E, or__ F below; or
B.

Payment to begin immediately (may be combined with __ C,__ D, or _ F below); or

C.

Payment in equal
(e.g., weekly, monthly, quarterly) installments of
$
over a period of
_ (e.g., months or years), to commence • .
days
(e.g., thirty or sixty days) after the date of this judgment; or

D.

Payment in equal _______(e.g., weekly, monthly, quarterly) installments of$
over a
period of______
(e.g., months or years) to commence
(e.g. thirty or sixty days) after release from imprisonment to a term of supervision;
or

E.

Payment during the term of supervised release will commence within
---------------------- (e.g, thirty or sixty days) after release from imprisonment. The court will set
the payment plan based on an assessment of the defendant’s ability to pay at that time, or

F • -X

Special instructions regarding the payment of criminal monetary penalties: While in the
Bureau of Prisons, the defendant shall (1) pay at least $25 quarterly if he has a non-Unicor
job; or (2) pay at least $50 of her monthly earnings if he does have a Unicor job. Upon release
the defendant is to pay restitution at the rate of $200 per month unless there is a demonstrated
change in his ability to pay.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period of imprisonment. All criminal monetary penalties,
except those payments made through the Federal Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary
penalties imposed.
X Joint and Several
Case Number
Defendant and Co-Defendant Names
8:15-cr-320-T-23TGW
Stacey Merritt
USM number: 18022-006

Total Atnonnt
$3,767,196.00

Joint and Several Amnnnt
$3,767,196.00

. - Case.8;15-cr-00320-SDM-TGW Document 765 Filed 10/20/17 Page 9 of 11 PagelD 5916
AO 245B (Rev. 11/16) Judgment in a Criminal Case
Sheet 7 — Schedule of Payments (continued)

Defendant: PERRY DON CORTESE
Case No.: 8:15-cr-320-T-23TGW

Judgment - Page 9 of 11

8:15-cr-320-T-23TGW
Priscilla Ann Ellis
USM number: 03260-180

$3,767,196.00

$3,767,196.00

8:15-cr-320-T-23TGW
Akohomen Ighedoise
USM number: n/a

$3,767,196.00

$3,767,196.00

8:15-cr-320-T-23TGW
Perry Don Cortese
USM number: 57791-380

$3,767,196.00

$3,767,196.00

8:15-cr-320-T-23TGW
Ikechukwu Derek Amadi
USM number: n/a

$3,767,196.00 .

$3,767,196.00

8:15-cr-320-T-23TGW
Kenietta Rayshawn Johnson
USM number: 25488-031

$3,767,196.00

$3,767,196.00

8:15-cr-126-T-23JSS
Muhammad Naji

$3,767,196.00

$3,767,196.00
*

■

t

r•

$3,767,196.00

$3,767,196.00

8:16-cr-259-T-33JSS
Michelle Ann Scalley

$3,767,196.00

$3,767,196.00

8:17-cr-254-T-3 6AEP
Dean Morgan

$3,767,196.00

$3,767,196.00

8:16-cr-149-T-36AEP
Dana Marie Jewesak

• ;

_^ The defendant shall pay the cost of prosecution.
_ The defendant shall pay the following court cost(s):
X The defendant shall forfeit the defendant’s interest in the following property to the United States:
The property identified in the preliminary order of forfeiture (Doc. 697), which is incorporated
into this judgment.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine
principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court
costs.

Caste 8:15-cr-00320-SDM-TGW Document 765 Filed 10/20/17 Page 10 of 11 PagelD 5917

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

UNITED STATES OF AMERICA
v.

CASE NO. 8:15-cr-320-T-23TGW

PERRY DON CORTESE

FORFEITURE MONEY JUDGMENT
A jury convicted Perry Don Cortese of conspiracy to commit wire and mail
fraud in violation of 18 U.S.C. § 1349 and conspiracy to commit money laundering
in violation of 18 U.S.C. § 1956(h), as charged in Counts One and Two of the
Superseding Indictment. The United States has established that $9,288,241.36 in
proceeds was obtained from the offenses.
The United States moves (Doc. 582) under 18 U.S.C. § 982(a)(1)(C) and
982 (a)(1), 28 U.S.C. § 2461(c), and Rule 32.2(b)(2), Federal Rules of Criminal
Procedure, for entry of a forfeiture money judgment in the amount of $9,288,241.36,
which at sentencing becomes a final order of forfeiture. The motion for entry of a
forfeiture money judgment is GRANTED. Under 18 U.S.C. § 982(a)(1)(C) and
982(a)(1), 28 U.S.C. § 2461(c), and Rule 32.2(b)(2), Federal Rules of Criminal
Procedure, Cortese is liable —jointly and severally with convicted co-defendants and

*
B

.

'Gaae 8:15,-cr-00320-SDM-TGW Document765 . Filed 10/20/17 Page 11 of 11 PagelD 5918
!

\t
;

*_

any subsequently convicted co-conspirator— for, a forfeiture money judgment in the

:•

amount of $9,288,241.36.

5

The United States may seek, as a substitute asset in satisfaction of this
judgment, forfeiture of any of Cortese’s property up to the value of the money
judgment. The court retains jurisdiction to enter any order necessary to the forfeiture
and disposition of any substitute asset.
ORDERED in Tampa, Florida, on July 28, 2017.

STEVEN D. MERRYDAY
UNITED STATES DISTRICT JUDGE

(
v

' ;:

-:

-2-

